U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

July 31, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Tennessee, By and Through the Tennessee General Assembly, et al. v.
Department of State, et al., No. 19-1137
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on March 13,
2020. The government’s response is now due, after two extensions, on August 12, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including August 14, 2020, within which to file a response.
This short extension is necessary because, in light of COVID-19, this Office is
endeavoring to minimize risks to the health and safety of our personnel responsible for the filing
and service of paper copies of Court documents by reducing the number of days each week on
which the filing and service of such documents are necessary and on which those personnel must
report to work in person.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

19-1137
TENNESSEE GENERAL ASSEMBLY, ET AL.
U.S. DEPARTMENT OF STATE, ET AL.

JULIE AXELROD
401 HOLLAND LANE, APT 1414
ALEXANDRIA, VA 22314
703-888-2442
JBA@CIS.ORG
JOANNE E. BREGMAN
ATTORNEY
6049 ROBIN HILL ROAD
NASHVILLE, TN 37205
615-589-9489
JEBREGMAN@GMAIL.COM
JOHN J. BURSCH
BURSCH LAW PLLC
9339 CHERRY VALLEY AVENUE SE
#78
CALEDONIA, MI 49316
616-450-4235
JBURSCH@BURSCHLAW.COM
LAWRENCE J. JOSEPH
1250 CONNECTICUT AVE., NW
SUITE 700-1A
WASHINGTON, DC 20036
202-355-9452
LJ@LARRYJOSEPH.COM
RICHARD THOMPSON
THOMAS MORE LAW CENTER
PO BOX 393
ANN ARBOR, MI 48106
743-827-2001

